                     AUDIT REPORT
                Audit of NRC's Non-Concurrence Process


                       OIG-11-A-02 October 7, 2010




All publicly available OIG reports (including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                 UNITED STATES
                         NUCLEAR REGULATORY COMMISSION
                                 WASHINGTON, D.C. 20555-0001



OFFICE OF THE
INSPECTOR GENERAL


                                                  October 7, 2010


MEMORANDUM TO:              R. William Borchardt
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S NON-CONCURRENCE PROCESS
                            (OIG-11-A-02)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Non-Concurrence Process.

The report presents the results of the subject audit. Agency comments provided at the
September 10, 2010, exit conference have been incorporated, as appropriate, into this
report. The formal comments provided by your office on September 28, 2010, are
presented in their entirety in Appendix C to this report. Appendix D contains OIG’s
response to the formal comments.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Sherri Miotla, Team Leader, Nuclear Materials & Waste Safety Team, at
415-5914.

Attachment: As stated
Electronic Distribution

Edwin M. Hackett, Executive Director, Advisory Committee
  on Reactor Safeguards
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety
  and Licensing Board Panel
Stephen G. Burns, General Counsel
Brooke D. Poole, Director, Office of Commission Appellate Adjudication
James E. Dyer, Chief Financial Officer
Hubert T. Bell, Inspector General
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
R. William Borchardt, Executive Director for Operations
Michael F. Weber, Deputy Executive Director for Materials, Waste,
  Research, State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director
  for Corporate Management, OEDO
Martin J. Virgilio, Deputy Executive Director for Reactor
  and Preparedness Programs, OEDO
Nader L. Mamish, Assistant for Operations, OEDO
Kathryn O. Greene, Director, Office of Administration
Patrick D. Howard, Director, Computer Security Office
Roy P. Zimmerman, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
  and Environmental Management Programs
Cheryl L. McCrary, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
Michael R. Johnson, Director, Office of New Reactors
Catherine Haney, Director, Office of Nuclear Material Safety
  and Safeguards
Eric J. Leeds, Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
James T. Wiggins, Director, Office of Nuclear Security
  and Incident Response
Marc L. Dapas, Acting Regional Administrator, Region I
Luis A. Reyes, Regional Administrator, Region II
Mark A. Satorius, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                                                                 Audit of NRC’s Non-Concurrence Process

EXECUTIVE SUMMARY



                The non-concurrence process is part of the agency’s Differing Views
                Program, and is managed by the Office of Enforcement. The Nuclear
                Regulatory Commission’s (NRC) implementation of an agencywide non-
                concurrence process supports the agency’s goal of promoting an open
                collaborative work environment, which values collaborative
                decisionmaking, diverse views, unbiased evaluations, and honest
                feedback on how decisions are made. The non-concurrence process was
                developed to promote discussion and consideration of differing views on
                draft documents, provide a non-concurrence option for individuals with
                concerns who had a role in creating or reviewing draft documents, and
                provide a uniform approach for processing non-concurrences.

                The Executive Director for Operations issued draft Management Directive
                (MD) and Handbook 10.158, “NRC Non-Concurrence Process,” via Yellow
                Announcement, on November 29, 2006. The Yellow Announcement
                directed staff to follow the requirements in the interim directive and
                handbook, which were to supersede any existing office-level non-
                concurrence procedures. At the time of its 2006 issuance, MD 10.158
                was expected to remain in interim status for approximately 1 year in order
                to gain operating experience to make informed revisions to the directive
                before its finalization. Finalization of MD 10.158 was further prolonged
                after the initial 1-year period in order to gain additional operating
                experience. Currently, MD 10.158 remains in interim status and is
                scheduled to be finalized in June 2013.




                The objective of this audit was to determine if the agency’s non-
                concurrence process is operating as intended.1




1
  The original objective of this audit, as noted in the Office of the Inspector General’s (OIG) fiscal year
2010 Annual Plan, was to assess the effectiveness of how NRC dispositions issues objected to through
the non-concurrence process. The objective was revised during fieldwork to widen the scope of the audit
to perform a more comprehensive assessment of the non-concurrence process.

                                                     i
                                        Audit of NRC’s Non-Concurrence Process




The agency’s non-concurrence process is a valuable tool in facilitating
discussion of differing views between staff and management and is
generally implemented as it was intended. However, OIG identified
opportunities for improvement within the non-concurrence process in the
following two areas:

      Agency guidance and training.
      Capture and review of operating experience.

Agency Guidance and Training on Non-Concurrence Process Can Be
Improved

Although the agency provides guidance and training on the non-
concurrence process, the guidance is incomplete and the training is
limited. Providing properly implemented guidance and training that
effectively communicate policies, objectives, responsibilities, authorities,
requirements, and information to employees are essential human capital
practices that help to ensure employees have the knowledge and skills to
perform their job and accomplish the agency mission. However, agency
guidance on the non-concurrence process is imprecise and remains in
prolonged interim status. Training on the agency’s non-concurrence
process is not provided in a medium that is routinely available to all staff
when they need it. Without precise guidance and timely training, the non-
concurrence process will continue to be inconsistently implemented and
staff will perceive the process as ineffective and inefficient. Furthermore,
some staff are hesitant to raise differing views through the agency’s non-
concurrence process.

Non-Concurrence Operating Experience Is Not Routinely or
Comprehensively Captured or Reviewed

MD 10.158 was implemented as interim guidance in November 2006 with
the intention that the agency gain operating experience in order to make
informed revisions to the directive prior to its final issuance. According to
management, a prolonged interim status would allow operating experience
to be gained, which, in turn, would be used to make informed revisions to
the management directive. Program management best practices include
strategies for routinely reviewing and capturing operating experience.


                               ii
                                             Audit of NRC’s Non-Concurrence Process

     However, because the non-concurrence process was implemented by
     design without a requirement to conduct regular program reviews,
     operating experience is not being formally captured or reviewed. As a
     result, it would be difficult for program management to perform a
     comprehensive assessment of the non-concurrence process and
     determine what revisions are needed to improve MD 10.158.
     Furthermore, the agency’s knowledge management initiative is negatively
     impacted when Forms 757, “Non-Concurrence Process,” which are key
     decisionmaking documents, are inconsistently tracked, profiled, and
     retained.




     This report makes eight recommendations to improve the guidance and
     training pertaining to and oversight of the non-concurrence process. A
     consolidated list of these recommendations appears in Section IV of this
     report.

AGENCY COMMENTS

     On August 26, 2010, OIG issued its discussion draft report to the
     Executive Director for Operations. OIG subsequently met with NRC
     management during a September 10, 2010, exit conference at which time
     the staff provided informal comments. OIG incorporated these comments,
     as appropriate, in a final draft report that was forwarded to the agency for
     review on September 21, 2010. On September 28, 2010, the Executive
     Director for Operations provided formal comments to this report in which
     the agency stated general agreement with the audit report and provided
     information on planned and ongoing activities pertaining to improvement
     of the non-concurrence process. The agency’s formal comments are
     presented in their entirety in Appendix C of this report. OIG’s analysis of
     the agency’s formal comments is located in Appendix D of this report.




                                   iii
                                         Audit of NRC’s Non-Concurrence Process

ABBREVIATIONS AND ACRONYMS

       ADAMS   Agencywide Documents Access and Management System

       MD      management directive

       NCP     non-concurrence process

       NRC     Nuclear Regulatory Commission

       OIG     Office of the Inspector General




                               iv
                                                                     Audit of NRC’s Non-Concurrence Process

TABLE OF CONTENTS

    EXECUTIVE SUMMARY ....................................................................................... i

    ABBREVIATIONS AND ACRONYMS .................................................................. iv

    I.      BACKGROUND ........................................................................................ 1

    II.     PURPOSE ................................................................................................ 4

    III.    FINDINGS ................................................................................................. 5

            A. Agency Guidance and Training on Non-Concurrence
               Process Can Be Improved .................................................................... 5

            B. Non-Concurrence Operating Experience Is Not Routinely or
               Comprehensively Captured or Reviewed ........................................... 14

    IV.     CONSOLIDATED LIST OF RECOMMENDATIONS ............................... 17

    V.      AGENCY COMMENTS ............................................................................ 18

    APPENDIXES

    A.     SCOPE AND METHODOLOGY ................................................................. 19

    B.     NRC FORM 757, “NON-CONCURRENCE PROCESS” ............................ 21

    C.     FORMAL AGENCY COMMENTS............................................................... 25

    D.     OIG ANALYSIS OF AGENCY COMMENTS ............................................. 28




                                                       v
                                                                Audit of NRC’s Non-Concurrence Process

I.      BACKGROUND

                The non-concurrence process is part of the agency’s Differing Views
                Program, and is managed by the Office of Enforcement. The Nuclear
                Regulatory Commission’s (NRC) implementation of an agencywide non-
                concurrence process supports the agency’s goal of promoting an open,
                collaborative work environment, which values collaborative
                decisionmaking, diverse views, unbiased evaluations, and honest
                feedback on how decisions are made.

                The non-concurrence process was developed to complement other
                processes for raising differing views, such as the Open Door Policy2 and
                the Differing Professional Opinions Program.3 More specifically, the non-
                concurrence process was developed to promote discussion and
                consideration of differing views on draft documents, provide a non-
                concurrence option for individuals with concerns who had a role in
                creating or reviewing draft documents, and provide a uniform approach for
                processing non-concurrences.

                As part of the agency’s Differing Views Program, the non-concurrence
                process does not have a separate budget or staff allotted to its operation.
                Rather, the fiscal year 2010 budget is $3,000 for the entire Differing Views
                Program, and 1.5 full-time equivalents are designated to collectively
                support the Differing Professional Opinions Program and the non-
                concurrence process.

                The Executive Director for Operations issued draft Management Directive
                (MD) and Handbook 10.158, “NRC Non-Concurrence Process,” via Yellow
                Announcement, on November 29, 2006. The Yellow Announcement
                directed staff to follow the requirements in the interim directive and
                handbook, which were to supersede any existing office-level non-
                concurrence procedures. At the time of its 2006 issuance, MD 10.158
                was expected to remain in interim status for approximately 1 year in order
                to gain operating experience to make informed revisions to the directive
                before its finalization. Finalization of MD 10.158 was further prolonged
                after the initial 1-year period in order to gain additional operating

2
 The NRC has an Open Door Policy that supports and allows any employee to initiate a meeting with an
NRC manager or supervisor, including a Commissioner or the Chairman of the NRC, to discuss any
matter of concern to the employee.
3
 The Differing Professional Opinions Program is a formal process that allows all employees and
contractors to have their differing views on established, mission-related issues considered by the highest
level managers in their organizations (i.e., office directors and regional administrators).
                                                     1
                                                              Audit of NRC’s Non-Concurrence Process

               experience. Currently, MD 10.158 remains in interim status and is
               scheduled to be finalized in June 2013.

               There are five specific conditions that apply to use the non-concurrence
               process:

               1. The non-concurrence process applies only to draft documents
                  undergoing the review and concurrence process.

               2. The non-concurrence process may be used by headquarters and
                  regional employees, with the exception of contractors and members of
                  boards and advisory committees that report to the Commission.

               3. The non-concurrence process can be used only by employees who
                  had an official role, as tasked by their supervisor or document sponsor,
                  in contributing to or reviewing the draft document.

               4. Use of the non-concurrence process should be viewed as “business as
                  usual” and not impact the normal document concurrence process.

               5. The non-concurrence process does not allow for separate timeliness
                  goals for documents involving non-concurrences; rather, the goal is to
                  process documents in accordance with their normal schedules.

               The non-concurrence process is a three-part procedure involving the non-
               concurring individual,4 the document sponsor,5 and the document signer,6
               each of whom has a specific role and set of responsibilities. The process
               can be described as follows:




4
  The non-concurring individual initiates the non-concurrence process by completing and filing NRC Form
757, “Non-Concurrence Process.” See Appendix B for a copy of the form.
5
  The document sponsor is defined by MD 10.158 as the team leader or manager responsible for
originating and controlling changes to a document in the concurrence process. The document sponsor is
assumed to have control over changes to a document and is given significant responsibilities for
implementing the non-concurrence.
6
  The document signer is the individual who is charged with reviewing the non-concurrence and
determining what, if any, action should be taken to address the concern raised in the non-concurrence.
The document signer either signs the document indicating agreement with the proposed actions or
returns the document to the document sponsor for additional action.
                                                  2
                                                               Audit of NRC’s Non-Concurrence Process

                Part one: The non-concurring individual initiates a non-concurrence
                documenting his or her concerns on Form 757. The non-concurring
                individual then forwards Form 757 to his or her supervisor for review and
                comment. Form 757 is then forwarded to the document sponsor for
                review.

                Part two: The document sponsor reviews Form 757 and consults with
                involved staff and the document signer. The document sponsor then
                documents the agency’s actions taken to address the non-concurrence on
                Form 757. The document sponsor puts Form 757 in the document’s
                concurrence package and returns the document to the concurrence
                process.

                Part three: The document signer reviews the document package,
                including Form 757, and confers with involved staff. Then the document
                signer either signs the document or returns it to the document sponsor for
                additional action.

                Following the document signer’s determination on the non-concurrence,
                Form 757 is to be entered into the Agencywide Documents Access and
                Management System (ADAMS)7 as an official agency record. The non-
                concurring individual is consulted to determine whether Form 757 is to be
                designated and entered into ADAMS as public or non-public.




7
 ADAMS is an electronic recordkeeping system that is used to maintain public and non-public official
agency records.
                                                   3
                                                                Audit of NRC’s Non-Concurrence Process



Figure 18




Source: MD 10.158, Appendix A



II.       PURPOSE

                  The audit objective was to determine if the agency’s non-concurrence
                  process is operating as intended. Appendix A contains information on the
                  audit scope and methodology.




8
    The non-concurrence process is also referred to as “NCP.”
                                                     4
                                                    Audit of NRC’s Non-Concurrence Process

III.   FINDINGS

            The agency’s non-concurrence process is a valuable tool in facilitating
            discussion of differing views between staff and management and is
            generally implemented as it was intended. However, the Office of the
            Inspector General (OIG) identified opportunities for improvement within
            the non-concurrence process in the following two areas:

                         Agency guidance and training.

                         Capture and review of operating experience.


       A.   Agency Guidance and Training on Non-Concurrence Process Can Be
            Improved

            Although the agency provides guidance and training on the non-
            concurrence process, the guidance is incomplete and the training is
            limited. Providing properly implemented guidance and training that
            effectively communicate policies, objectives, responsibilities, authorities,
            requirements, and information to employees are essential human capital
            practices that help to ensure employees have the knowledge and skills to
            perform their job and accomplish the agency mission. However, agency
            guidance on the non-concurrence process is imprecise and remains in
            prolonged interim status. Training on the agency’s non-concurrence
            process is not provided in a medium that is routinely available to all staff
            when they need it. Without precise guidance and timely training, the non-
            concurrence process will continue to be inconsistently implemented and
            staff will perceive the process as ineffective and inefficient. Furthermore,
            some staff are hesitant to raise differing views through the agency’s non-
            concurrence process.

                   Key Human Capital Practices

            Agency and industry best practices state that providing properly
            implemented and effective guidance and training are key human capital
            practices. Providing timely guidance that effectively communicates
            policies, objectives, responsibilities, authorities, requirements, and
            information to employees is essential in ensuring staff have the knowledge
            and skills to perform their job. Furthermore, an Office of Management and
            Budget memorandum addressing Agency Good Guidance Practices
                                          5
                                                               Audit of NRC’s Non-Concurrence Process

                indicates that established standards for the initiation, development, and
                issuance of guidance documents helps to raise their quality and
                transparency.

                Providing training to staff is also critical to effective workforce planning and
                ensuring employees are equipped to perform their jobs in accordance with
                the agency’s mission. Training best practices promote the notion that
                people get the right skills, at the right time, and in the right way.
                Furthermore, to be effective, training must be easily transferred back to
                the workplace. This is achieved through the timing of the training, the
                quality of the content, and the quality and appropriateness of the delivery
                method.

                        Non-Concurrence Process Guidance

                Agency guidance on the non-concurrence process, which includes
                MD 10.158 and the Office of Enforcement Differing Views Web site,9 can
                be improved. OIG identified areas for improvement, in part, through
                conducting extensive interviews with staff and managers who had direct
                experience using or being party to the agency’s non-concurrence
                process.10 Interviews revealed inadequacies with non-concurrence
                process guidance in the following areas:

                    Rights, roles, and responsibilities.
                    Purpose of implementation.
                    Processing instructions.




9
  The Office of Enforcement Differing Views Web site was replaced with the Open, Collaborative Work
Environment Web site in July 2010; however, fieldwork for this audit was completed in June 2010, prior to
implementation of the new Web site.
10
   OIG conducted interviews with each identified and available staff member who either filed a non-
concurrence or were party to a non-concurrence by serving as a document sponsor or document signer.
A total of 43 individuals were interviewed, including 17 non-concurring individuals, 14 document
sponsors, and 12 document signers. Of the 17 non-concurring individuals interviewed, 12 percent (2)
were grade GG-13, 23 percent (4) were grade GG-14, 53 percent (9) were grade GG-15, and 12 percent
(2) were Senior Level Service or Senior Executive Service.
                                                    6
                                                              Audit of NRC’s Non-Concurrence Process

               Interview results revealed that 70 percent11 of filers,12 document sponsors,
               and document signers did not understand their respective rights, roles,
               and responsibilities in relation to the non-concurrence process as
               compared to that described in MD 10.158. For example:

                   Some filers were unaware of their right to ask to be removed from
                   concurrence, while some document sponsors and document signers
                   were unaware of the right of filers to be removed from concurrence.

                   Several document sponsors, who were central in facilitating the non-
                   concurrence process, incorrectly identified their role and performed
                   duties outside of the responsibilities designated in MD 10.158. Multiple
                   document sponsors incorrectly initiated and submitted Forms 757 on
                   behalf of filers. Additionally, some document sponsors incorrectly
                   made the determination whether to designate Form 757 as public or
                   non-public in ADAMS.

                   Some document signers were unaware of their responsibility that in
                   signing Form 757, they were certifying they had reviewed Form 757 to
                   ensure that the concerns raised by the filer were adequately addressed
                   and the form was correctly completed.

               Interview results showed that 51 percent13 of filers, document sponsors,
               and document signers exhibited a misunderstanding of the purpose and
               expectations for implementing the non-concurrence process. Specifically,
               OIG identified a disconnect between the filers and document signers
               regarding what constitutes successful use of the non-concurrence
               process. For example:

                   Some filers defined success in implementing the non-concurrence
                   process as occurring if their differing view was raised and considered
                   by management.

                   Some document signers felt that success in implementing the non-
                   concurrence process was simply that a differing view was raised.

11
   70 percent of non-concurring individuals, document sponsors, and document signers equates to 30 of a
total of 43 individuals interviewed. This includes 14 filers, 12 document sponsors, and 4 document
signers.
12
   The term “filer” refers to the non-concurring individual who filed a Form 757. For consistency, the
remainder of this report will use the term “filer” when referring to a non-concurring individual.
13
   51 percent of filers, document sponsors, and document signers equates to 22 of a total of 43
individuals interviewed. This includes 11 filers, 3 document sponsors, and 8 document signers.
                                                  7
                                                            Audit of NRC’s Non-Concurrence Process


               Interview results revealed that 74 percent14 of filers, document sponsors,
               and document signers felt that the processing instructions contained in the
               non-concurrence guidance were incomplete with regard to dispositioning
               non-concurrences, noting:

                   MD 10.158 does not provide detailed guidance, examples, or
                   expectations for addressing concerns raised by the filer on Form 757.

                   MD 10.158 does not provide specific guidance or set clear
                   expectations on providing feedback to the filer on the status of their
                   non-concurrence. This was also a staff concern in the OIG-sponsored
                   2009 NRC Safety Culture and Climate Survey,15 where only 50 percent
                   of the respondents provided a positive response to the statement, “My
                   supervisor adequately explains the resolution of differing views that
                   were raised.”

                   MD 10.158 does not provide specific guidance pertaining to the
                   timeliness of processing non-concurrences. Filers and document
                   signers noted that such a guideline would be helpful in ensuring that an
                   appropriate amount of time is allotted to submit and review a non-
                   concurrence. Filers and document sponsors recognized that such a
                   guideline would provide an appropriate balance between allotting
                   sufficient time for the filer to submit a non-concurrence without unduly
                   compromising project milestones.

               Figures 2 and 3 summarize the results of the interviews conducted by
               OIG. Figure 2 illustrates the three identified areas of concern, noting the
               cumulative percentage of key personnel who experienced each concern.
               Figure 3 illustrates the three identified areas of concern as experienced by
               the corresponding percentage of filers, document sponsors, and document
               signers.




14
   74 percent of filers, document sponsors, and document signers equates to 32 of a total of 43
individuals interviewed. This includes 15 filers, 10 document sponsors, and 7 document signers.
15
   The OIG-sponsored Safety Culture and Climate Survey assessed NRC’s current safety culture and
climate and compared it to benchmarks established by prior Safety Culture and Climate surveys
conducted in 1998, 2002, and 2006.
                                                 8
                                                    Audit of NRC’s Non-Concurrence Process

        Figure 2 - Cumulative Interview Results

  90%
                                                              Areas of
  80%                                                         Concern
  70%

  60%                                                        Rights, Roles, &
                                                             Responsibilities
  50%
                                                             Purpose of
  40%                                                        Implementation

  30%                                                        Processing
                                                             Instructions
  20%

  10%

   0%
                    NCP Key Personnel
         (filers, document sponsors, and document signers)




        Figure 3 - Interview Results by Key Personnel

100%
90%                                                                 Areas of
                                                                    Concern
80%
70%
                                                                Rights, Roles, &
60%                                                             Responsibilities
50%                                                             Purpose of
40%                                                             Implementation
30%                                                             Processing
20%                                                             Instructions
10%
 0%
          Filers        Sponsors          Signers


A detailed analysis of agency guidance pertaining to the non-concurrence
process revealed instances of contradictory and outdated information. For
example:




                                      9
                                                                Audit of NRC’s Non-Concurrence Process

                    Informs16 and the Office of Enforcement Differing Views Web site
                    reference different versions of Form 757, each with distinct processing
                    instructions. A subsequent analysis of submitted Forms 757 revealed
                    several inconsistencies and inaccuracies in how the forms were
                    completed.

                    OIG identified outdated guidance on the Office of Enforcement
                    Differing Views Web site. For example, some of the Differing Views
                    Office Liaisons17 listed on the Office of Enforcement Differing Views
                    Web site are no longer employed at the agency or have since
                    relinquished the role of liaison. Subsequently, staff were confused as
                    to who was the designated liaison for their office. Moreover, some
                    staff were altogether unaware of the existence of the liaison resource.

                        Non-Concurrence Process Guidance Is Imprecise

                Agency guidance on the non-concurrence process is imprecise and
                remains in prolonged interim status. For example, MD 10.158:

                    Does not provide specific information on dispositioning concerns raised
                    by the filer on Form 757, nor does it address the need to provide
                    feedback to the filer on the status of the non-concurrence.

                    Does not provide detailed information on what constitutes reasonable
                    timeliness expectations for submitting and responding to a non-
                    concurrence.

                    Provides unclear instructions pertaining to the completion and
                    processing of Forms 757 as well as the roles and responsibilities of
                    key non-concurrence process personnel.

                    Does not address the liaison’s role in the non-concurrence process.




16
   Informs is an office automation application that provides staff access to several Governmentwide and
agency-specific forms. The Informs application allows employees to complete and store forms
electronically.
17
   Differing Views Office Liaisons serve as a resource for staff who seek information about various ways
to raise differing views, including the Open Door Policy, the non-concurrence process, and the Differing
Professional Opinion Program. Differing Views Office Liaisons are to be available to respond to
employee questions and initiatives in their organizations.
                                                   10
                                                                Audit of NRC’s Non-Concurrence Process

                    Has been in interim status since its implementation in November 2006
                    and is not scheduled to be finalized until June 2013, nearly 7 years
                    after its implementation.

                        Non-Concurrence Process Training Is Limited

                Agency training on the non-concurrence process is limited. Non-
                concurrence process training is generally reserved for Leadership
                Potential Program18 candidates and small staff assemblies on a request-
                only basis.19 Training on the non-concurrence process is not offered to
                new hires during the new employee orientation, and it has not been
                routinely offered to all Differing Views Office Liaisons. Although limited
                training opportunities are provided and non-concurrence process program
                management is available to offer counsel on an individual basis,
                employees need to be provided with a general introduction to the non-
                concurrence process.

                        Training Is Not Provided When Needed in a Usable Format

                Agency training on the non-concurrence process is not provided in a
                medium that is routinely available to all staff when they need it. Formal
                training is currently offered only to select staff in a seminar-style format
                that does not lend itself to widespread, timely dissemination among staff
                and managers. Specifically, training is not delivered in accordance with
                recognized best practices that state training is most effective when the
                timing and delivery method is appropriate and aligned with the needs of
                the target audience.

                        Negative Implications on Agency Non-Concurrence Process

                Without precise guidance and on-demand training,20 the non-concurrence
                process will continue to be inconsistently implemented and staff will
                perceive the process as ineffective and inefficient. Additionally, some
                individuals who have filed a non-concurrence have become
                disenfranchised and ultimately felt the non-concurrence process to be
18
   The Leadership Potential Program emphasizes the core competencies related to supervising people. In
addition, it covers the policies and procedures that leaders in the NRC environment need to understand.
Employees with relatively little supervisory background gain broad training and opportunities to
experience and test their interest in leadership.
19
   The non-concurrence process is also briefly mentioned in the “NRC: What It Is and What It Does”
course.
20
   The term “on-demand training” refers to on-line, interactive training that is available at any time from
any location.
                                                    11
                                        Audit of NRC’s Non-Concurrence Process

disadvantageous, stating that their performance evaluations were lowered
because they filed a non-concurrence. In a followup measure, the audit
team reviewed all available performance appraisals for identified filers for
the time periods immediately preceding and following submittal of a non-
concurrence. OIG substantiated that in three instances, the filer received
a lower score for the rating period immediately following submittal of a
non-concurrence. However, there was no indication in the appraisals that
lower ratings were associated with the filing of a non-concurrence. These
instances support some agency staff’s belief that there is a negative
stigma attached to the non-concurrence process. Without improvement,
the negative stigma may become more widespread and staff will be
reluctant to use the non-concurrence process.

Recommendations

OIG recommends that the Executive Director for Operations:

1. Define management’s expectations regarding the non-concurrence
   process and clearly communicate them to staff.

2. Revise MD 10.158 to include detailed guidance on:

      a. Dispositioning of non-concurrences to include a feedback
         mechanism on the status of the non-concurrence.

      b. Timeliness expectations.

      c. Completion and processing of Form 757.

      d. Roles and responsibilities of key non-concurrence process
         personnel.

      e. The availability of the Differing Views Office Liaisons.

3. Finalize MD 10.158 by the end of 2011.

4. Make non-concurrence process training available in an on-demand
   format to all staff and managers.




                              12
                                     Audit of NRC’s Non-Concurrence Process

5. Routinely update the Office of Enforcement Open Collaborative Work
   Environment Contact Web page to reflect current Differing Views
   Office Liaison assignments.




                           13
                                               Audit of NRC’s Non-Concurrence Process


B.   Non-Concurrence Operating Experience Is Not Routinely or
     Comprehensively Captured or Reviewed

     MD 10.158 was implemented as interim guidance in November 2006 with
     the intention that the agency gain operating experience in order to make
     informed revisions to the directive prior to its final issuance. According to
     management, a prolonged interim status would allow operating experience
     to be gained, which, in turn, would be used to make informed revisions to
     the management directive. Program management best practices include
     strategies for routinely reviewing and capturing operating experience.
     However, because the non-concurrence process was implemented by
     design without a requirement to conduct regular program reviews,
     operating experience is not being formally captured or reviewed. As a
     result, it would be difficult for program management to perform a
     comprehensive assessment of the non-concurrence process and
     determine what revisions are needed to improve MD 10.158.
     Furthermore, the agency’s knowledge management initiative is negatively
     impacted when Forms 757, which are key decisionmaking documents, are
     inconsistently tracked, profiled, and retained.

            Program Management Best Practices

     Program management best practices include strategies for routinely
     reviewing and capturing operating experience. These best practices
     advocate proactive oversight and the establishment of internal controls
     that require the conduct of regular program reviews designed to assess
     program performance. Such reviews allow for timely and systematic
     collection and analysis of operating experience to facilitate identification of
     lessons learned. These lessons learned should, in turn, be used to make
     program revisions to enhance program performance.

            Operating Experience Is Not Routinely or Comprehensively
            Captured or Reviewed

     Non-concurrence process operating experience is not routinely captured
     or reviewed. Program management has not routinely tracked and
     assessed Forms 757. Although Form 757 was revised in March 2009 to
     provide additional processing instructions, including an instruction to
     provide a copy to the program manager, this is not routinely occurring.
     Forms 757 filed prior to March 2009 were not required to be forwarded to

                                    14
                                                               Audit of NRC’s Non-Concurrence Process

                the program manager for collection and review. Moreover, program
                management stated that prior to implementing the aforementioned
                instruction, the only way they became aware of a non-concurrence was if
                a party to the non-concurrence informed them of the action or if they
                performed an ADAMS search. Consequently, program management does
                not have a comprehensive record of all non-concurrences filed since the
                inception of the non-concurrence process.

                Forms 757 are not tracked by the Office of Enforcement; therefore, OIG
                conducted subsequent searches in ADAMS for evidence of non-
                concurrences.21 These searches confirmed inconsistency in how Forms
                757 were profiled and placed in ADAMS. The audit team found that not all
                Forms 757 are profiled in ADAMS in accordance with the MD 10.158
                instruction to use NRC template 006.22 Specifically, the audit team used
                NRC template 006 criteria to search ADAMS and found only seven Forms
                757 that were profiled using the required template. The audit team
                conducted an additional ADAMS search using different search parameters
                related to non-concurrence and found several more Forms 757.
                Moreover, while conducting fieldwork, the audit team learned of additional
                Forms 757 that did not appear in any previous ADAMS searches. These
                instances confirm the difficulty of establishing the exact number of non-
                concurrences filed to date by conducting an ADAMS search.

                        Lack of Routine Management Oversight

                The non-concurrence process operating experience is not captured or
                reviewed because the process was not designed to include such a
                requirement. Particularly, the non-concurrence process was implemented
                without a requirement for regular program performance reviews or routine
                oversight. As such, there is no timely and systematic collection and
                review of operating experience or documentation of lessons learned.




21
   Auditors conducted several searches of ADAMS throughout the audit. At the time of this report,
auditors identified a total of 20 Forms 757 filed between March 2007 and March 2010. However, it is
plausible that additional non-concurrences exist that OIG did not find.
22
   NRC template 006 is an ADAMS profiling tool used specifically for records associated with the agency’s
non-concurrence process.
                                                   15
                                                          Audit of NRC’s Non-Concurrence Process

                      Management Unable To Perform Comprehensive Assessment
                      of the Non-Concurrence Process

               Without capturing and reviewing operating experience, management will
               be unable to perform a comprehensive assessment of the non-
               concurrence process. Subsequently, it will be difficult for program
               management to make informed decisions on how to revise MD 10.158 to
               improve the non-concurrence process.

               Recommendations

               OIG recommends that the Executive Director for Operations:

               6. Identify and track all Forms 757 submitted to date and store them in a
                  central repository.

               7. Develop a formalized system to promote consistent and routine
                  capture and review of submitted Forms 757.

               8. Perform regularly scheduled comprehensive assessments of the non-
                  concurrence process.

                      Summary and Conclusion

               The non-concurrence process is a valuable tool in facilitating discussion of
               differing views between staff and management. NRC has been proactive
               in promoting the non-concurrence process through various outreach
               activities, including recognizing certain individuals who have filed non-
               concurrences with “NRC Team Player”23 awards. By enhancing agency
               guidance and training on the non-concurrence process, as well as
               requiring routine review and capture of all non-concurrence process
               operating experience, the Office of Enforcement can further improve this
               valuable agency program.




23
  The NRC Team Player award is a new award established by the agency to recognize and show
appreciation for individuals who have supported an open collaborative work environment.
                                               16
                                                  Audit of NRC’s Non-Concurrence Process

IV.   CONSOLIDATED LIST OF RECOMMENDATIONS

          OIG recommends that the Executive Director for Operations:

          1. Define management’s expectations regarding the non-concurrence
             process and clearly communicate them to staff.

          2. Revise MD 10.158 to include detailed guidance on:

                a. Dispositioning of non-concurrences to include a feedback
                   mechanism on the status of the non-concurrence.

                b. Timeliness expectations.

                c. Completion and processing of Form 757.

                d. Roles and responsibilities of key non-concurrence process
                   personnel.

                e. The availability of the Differing Views Office Liaisons.

          3. Finalize MD 10.158 by the end of 2011.

          4. Make non-concurrence process training available in an on-demand
             format to all staff and managers.

          5. Routinely update the Office of Enforcement Open Collaborative Work
             Environment Contact Web page to reflect current Differing Views
             Office Liaison assignments.

          6. Identify and track all Forms 757 submitted to date and store them in a
             central repository.

          7. Develop a formalized system to promote consistent and routine
             capture and review of submitted Forms 757.

          8. Perform regularly scheduled comprehensive assessments of the non-
             concurrence process.




                                       17
                                                Audit of NRC’s Non-Concurrence Process

V.   AGENCY COMMENTS

        On August 26, 2010, OIG issued its discussion draft report to the
        Executive Director for Operations. OIG subsequently met with NRC
        management during a September 10, 2010, exit conference at which time
        the staff provided informal comments. OIG incorporated the comments,
        as appropriate, in a final draft report that was forwarded to the agency for
        review on September 21, 2010. On September 28, 2010, the Executive
        Director for Operations provided formal comments to this report in which
        the agency stated general agreement with the audit report and provided
        information on planned and ongoing activities pertaining to improvement
        of the non-concurrence process. The agency’s formal comments are
        presented in their entirety in Appendix C of this report. OIG’s analysis of
        the agency’s formal comments is located in Appendix D of this report.




                                      18
                                                             Audit of NRC’s Non-Concurrence Process

                                                                                          Appendix A
SCOPE AND METHODOLOGY

               The audit objective was to determine if the agency’s non-concurrence
               process is operating as intended. The audit focused on reviewing the
               implementation and oversight of the non-concurrence process through
               documentation review and meeting with those individuals who have
               participated in the non-concurrence process.

               OIG reviewed relevant Federal Government best practices pertaining to
               program management including the Office of Management and Budget-
               endorsed Agency Good Guidance Practices in addition to private
               industry’s recognized best program management practices. OIG also
               reviewed agency guidance, including MDs 1.1, NRC Management
               Directives System, and 10.158, NRC Non-Concurrence Process.
               Additionally, OIG considered pertinent internal agency communications
               documents including memoranda and Yellow Announcements pertaining
               to the implementation of the non-concurrence process. Lastly, OIG
               reviewed a previously issued OIG audit report addressing issues related to
               agency-sponsored differing views programs.24

               OIG interviewed management officials in the Office of the Executive
               Director for Operations, Office of Enforcement, Office of the General
               Counsel, and Office of Administration to obtain their insight into the
               implementation and oversight of the non-concurrence process. Additional
               interviews were conducted with 43 staff members and managers from
               headquarters and the regions who have filed, sponsored, reviewed, or
               otherwise participated in the non-concurrence process.

               OIG also conducted record reviews during the course of the audit.
               Specifically, the audit team reviewed Forms 757 identified in ADAMS to
               determine (1) whether the forms were completed in accordance with MD
               10.158, and (2) the consistency and accuracy by which the forms were
               completed and profiled. Auditors analyzed the results to determine
               whether the Office of Enforcement is appropriately and consistently




24
  OIG Report 00-A-07, Review of NRC’s Differing Professional View/Differing Professional Opinion
Program.
                                                 19
                                       Audit of NRC’s Non-Concurrence Process

overseeing the implementation of the non-concurrence process. The audit
team also reviewed performance evaluations to determine if any individual
may have suffered negative repercussions after submitting a non-
concurrence.

We conducted this performance audit at NRC headquarters from
February 2010 through June 2010 in accordance with generally accepted
Government auditing standards. Those standards require that the audit is
planned and performed with the objective of obtaining sufficient,
appropriate evidence to provide a reasonable basis for any findings and
conclusions based on the stated audit objective. OIG believes that the
evidence obtained provides a reasonable basis for the report findings and
conclusions based on the audit objective. Internal controls related to the
audit objective were reviewed and analyzed. Throughout the audit,
auditors were aware of the possibility or existence of fraud, waste, or
misuse in the program. The audit work was conducted by Sherri Miotla,
Team Leader; Jaclyn Storch, Audit Manager; Cathy Colleli, Audit
Manager; Yvette Mabry, Senior Auditor; and Joseph Capuano, Auditor.




                             20
                                Audit of NRC’s Non-Concurrence Process

                                                          Appendix B
NRC Form 757, “NON-CONCURRENCE PROCESS”




                          21
     Audit of NRC’s Non-Concurrence Process




22
     Audit of NRC’s Non-Concurrence Process




23
     Audit of NRC’s Non-Concurrence Process




24
                              Audit of NRC’s Non-Concurrence Process

                                                        Appendix C
FORMAL AGENCY COMMENTS




                         25
     Audit of NRC’s Non-Concurrence Process




26
     Audit of NRC’s Non-Concurrence Process




27
                                                 Audit of NRC’s Non-Concurrence Process

                                                                           Appendix D


OIG ANALYSIS OF AGENCY COMMENTS

        OIG recognizes the agency’s efforts to promote and improve the non-
        concurrence process, which is a valuable staff tool to raise and address
        differing views on draft documents. Additionally, OIG understands the
        explanation provided for initially delaying the finalization of MD 10.158
        until 2013. However, OIG maintains that because MD 10.158 has been in
        draft for nearly 4 years, it is imperative that it be revised and finalized by
        the end of calendar year 2011. This will ensure that identified
        inadequacies and inconsistencies in the current guidance will be corrected
        expeditiously, and the implementation and use of the process will be
        better understood throughout the agency. Finalization of MD 10.158 will
        also improve the validity of the non-concurrence process as some staff
        may perceive that MD 10.158’s prolonged interim status indicates a lack of
        management receptivity to the non-concurrence process.

        OIG recognizes the agency’s efforts to provide improved training on the
        non-concurrence process through a variety of media, including online
        training and classroom-based courses. OIG maintains that this training
        should focus on explaining the rights, roles and responsibilities, purpose
        and implementation, and processing instructions associated with the non-
        concurrence process. Providing “behavior-based training” may be useful;
        however, audit work confirmed that a significant number of staff
        specifically identified the need for clarification on the aforementioned
        aspects of the non-concurrence process. Providing training that
        specifically addresses rights, roles and responsibilities, purpose and
        implementation, and processing instructions would be most responsive to
        self-identified staff needs and be of greatest benefit to the non-
        concurrence process.




                                      28
